Case No.

20-735

In The Supreme Court of the United States

Case No.19-56187

ARTEM KOSHKALDA,
Petitioner
v.
SEIKO EPSON CORPORATION, ET. Al.,
Respondent

On Petition For A Writ Of Certiorari To The United
States Court Of Appeals For The Ninth Circuit

REPLY
ISO PETITION FOR A WRIT OF CERTIORARI

Artem Koshkalda
3408 Chitgar Pl, San Jose,
CA, 95117
Appearing Pro Se
December 31, 2020

1
REPLY
In the Opening Brief ("OB") Koshkalda made
the
following points:
. Trustee was not a party to the CA Action.
Trustee as a non-party filed a Notice for Voluntary
dismissal pursuant to FRCP Rule 41(a)(1)(A)(i
)
while Trustee never filed a motion pursuant
to
FRCP 25c to substitute a true Plaintiff, Petition
er
herein.
Notice of Voluntary Dismissal,
effective
immediately upon filing, which deprive
d
Koshkalda from his property without any notic
e in
violation of the Koshkalda's constitutional
due
process right to receive a notice and
an
opportunity to respond in violation of U.S. Con
st.
amend. XIV, § 2, and U. S. Const. amend. V.
The Bankruptcy's Court order authorized Trus
tee
to dismiss different case and there was no reco
rd
before the CA Court that it was a clerical erro
r.
In the Response Brief ("RB") Epson did not disp
ute
that:
Trustee never filed, let alone served FRCP
25c
Motion.
the Bankruptcy's Court order authorized Trus
tee
to dismiss a different case and not the CA Cou
rt
case.
proof of service filed by Trustee was delivered
to
Koshkalda several days later after Notice
of
Voluntary dismissal was filed, thus deprive
d
Petitioner from his property rights without
an
opportunity to object.

2
The Koshkalda's constitutional due process rights
were violated when Koshkalda was deprived from
his property without any notice, let alone,
reasonable calculated under all circumstances.
The only part Epson disputed was that Koshkalda
never raised these arguments before, thus the
Petition should be denied.
Seiko Epson Corporation's and Epson America,
Inc's., (hereinafter collectively "Epson") Response
Brief ("RB") is limited to two points: (i) that appellate
courts do not review issues raised for the first time on
appeal, and (ii) trustee had an uncontested authority
to dismiss CA Court case. As a result, Epson believes
that this case does not satisfy the standard to grant
further review set forth in the Supreme Court Rule
10.
Koshkalda respectfully disagrees for the following
reasons.
First, Epson seems to conflate two different
orders:
The Notice of Voluntary Dismissal with
prejudice which is considered a final order
adjudicated on the merits which Koshkalda
challenges in this Petition; and
(ii) CA Court orders denying Rule 60(b) Motions
affirmed by the Ninth Circuit Court of Appeal.
Koshkalda challenges the Notice of Voluntary
Dismissal "with prejudice". Both, the CA Court and
the Ninth Circuit Court of Appeal erred affirming it.
Second, Koshkalda was not offered an opportunity
to respond due to the immediate effect of the Notice of
Voluntary Dismissal "with prejudice". Koshkalda was

3
deprived from the Wrongful Seizure claim, which was
a property of Koshkalda in violation of the
Koshkalda's constitutional right to due process. U.S.
Const. amend. XIV, § 2, and U. S. Const. amend. V
prohibits deprivation of a "property" without a notice
"reasonable calculated under all circumstances to
apprise interested parties of the pendency of the
action and afford them an opportunity to present their
objections." Mullane.'
The Trustee deprived Koshkalda from his property
without any notice, let alone reasonable calculated
under all circumstances. Unlike regularly noticed
motion The Notice of Voluntary Dismissal "with
prejudice" filed electronically by Trustee was effective
immediately upon filing. The proof of service states
that Koshkalda was served with the Notice of
Dismissal several days later after CA Court case was
dismissed by non-party, the Trustee. As a result,
Koshkalda had no opportunity to be heard prior to
depriving Koshkalda from his property. ("Rule
60(b)(4) applies only in the rare instance where...
violation of due process deprives a party of notice or
the opportunity to be heard.") United Student Aid
Funds, Inc. v. Espinosa, 559 U.S. 260, 271, 130 S. Ct.
1367, 1377 (2010). ("Espinosa")(emphasis added).
Unlike Espinosa where the creditor filed its Rule
60(b)(4) motion years later as a substitution of not
timely filed appeal, here Koshkalda sought review of
the CA Court Order by way of timely filed appeal
before the Ninth Circuit Court of Appeal. ("Rule
See Mullane v. Cent. Hanover Bank & Tr. Co.,
339 U.S. 306, 70 S. Ct. 652 (1950);

1

4
60(b)(4) is not a substitute for a timely
appeal."). Rule
60(b)(4) arguments are warranted her
e because the
Ninth Circuit Court of Appeal erred wh
en affirmed a
void order which is Notice of Volun
tary Dismissal
filed by a non-party Trustee ("A judgm
ent may also be
void if the court that awarded it lacked
jurisdiction
over the subject matter or the parties
or entered a
decree which was not within the court's
powers.") In
re Four Seasons Securities Laws Litigat
ion, 502 F.2d
834, 842 (10th Cir.), cert. denied, 419
U.S. 1034
(1974);2
Next, Epson argued that "all of his [Ko
shkalda's]
arguments before this Court are bas
ed on Federal
Rule of Civil Procedure ("Rule") 25(c)
and 60(b)(4) or
defective service, were never argued
in the lower
courts." RB at 2. In support Epson cite
d Singleton v.
Wulff, 428 U.S. 106, 120 (1976)3 for the
proposition
that appellate courts do not review issu
es raised for
the first time on appeal.
The analysis of facts suggests tha
t Singleton
supports the Koshkalda's position. Sin
gleton court
stated: "We have no idea what evi
dence, if any,
petitioner would, or could, offer in
defense of this
statute, but this is only because petitio
ner has had no
opportunity to proffer such evidence."
Here, similarly to Singleton Court, Ko
shkalda had
no opportunity to provide any eviden
ce or object
against the Trustee's Notice of Dismis
sal because the
Notice of Dismissal was effective imm
ediately, thus
2

11 C. Wright & A. Miller, Fed
eral Practice and
Procedure § 2862 at 198-200 (1973);
3
Epson also cited different cases for the
same
proposition;

5
Koshkalda was deprived from his property rights
immediately, while Koshkalda was served with
a
notice several days later via regular mail.
Further, Singleton Court states that: "Certainly
there are circumstances in which a federal appellate
court is justified in resolving an issue not passed on
below, as where the proper resolution is beyond any
doubt or where "injustice might otherwise result." The
deprivation of the Koshkalda's property rights
without any notice, let alone reasonably calculated
notice, certainly falls within Singleton
characterization "where the proper resolution is
beyond any doubt" and "injustice may otherwis
e
result."4
Here, in its Respondent's Brief ("RB") Epson
completely omitted the fact that before substitution of
a party FRCP 25(c) requires a service of a noticed
hearing to afford an opportunity to oppose/object. In
addition, that allegedly proper service by Trustee was
done via mail and delivered several days later after
the Notice of Dismissal was on file, thus effective
immediately before Koshkalda had a chance to oppose
or object.
The combination of facts that (i) the Bankruptcy
Court never authorized Trustee to file a dismissal
"with prejudice" and (ii) the Bankruptcy Court
abandoned all rights to the CA Action right after the
CA Action was dismissed "with prejudice" —
evidences that if the Motion would have been properly
brought with a reasonable notice for Koshkalda to
These examples are not intended to be
exclusive. Singleton v. Wulff, 428 U.S. 106, 121 n.8,
96 S. Ct. 2868, 2877 (1976)
4

6
objection, as required by a due process right, then
the
dismissal "with prejudice" would certainly be avo
ided,
or at the minimum "could" be avoided.
Next, the Epson's arguments that Koshkalda'
s
counsel signed stipulation "that clearly set fort
h the
basis for the Trustee's appearance and undispu
ted
authority in the action" lacks merit. RB at 7. A
brief
review of the stipulation suggests that the stipulat
ion
did not extend to anything beyond providing
an
extension to file an answer. Nowhere in
that
stipulation was stated that Trustee was authoriz
ed to
file a Notice of Voluntary Dismissal "with prejudic
e"
or any other documents.
Rule 60(b)(6) is warranted here. The dismissa
l
"with prejudice" was filed in the litigation aga
inst
Epson by the Epson's lawyers acting on beh
alf of
Trustee,. Such behavior of counsels should not
be
promoted or incentives by allowing such dism
issals
with prejudice to stand.
Therefore, Koshkalda respectfully request this
Court to grant this petition.

DATED: December 31, 2020
By: 4 tezhf, X',4/d42,
-da.
Artem Koshkalda, Petitioner

